                            SOCIAL SECURITY
                                     June 24, 2008


The Honorable Michael McNulty
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

Your February 26, 2008 letter asked that we review issues related to high-interest
“payday” lenders who appeared to have obtained direct access to Social Security
Administration (SSA) benefit payments.

Thank you for bringing your concerns to my attention. The attached report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Wade Walters, Assistant Inspector General for Congressional and
Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

 Social Security Administration
   Payments Sent to Payday
        Loan Companies
          A-06-08-28112




            June 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                      Background
OBJECTIVE
To determine the extent to which high-interest “payday” lenders obtained direct access
to Social Security payments, identify demographic information of the affected
individuals, and determine what steps the Social Security Administration (SSA) had
taken to prevent the transfer or assignment of these payments to payday lenders.

BACKGROUND
Recent newspaper articles have discussed payday lenders who target Social Security
beneficiaries for loans secured by benefit payment checks. Federal law generally
prohibits the transfer or assignment of Social Security and Supplemental Security
Income (SSI) payments to creditors and protects these benefits from levy, attachment,
or garnishment. However, the articles make it appear the payday lenders were able to
obtain direct access to SSA funds and subtract debt repayments, plus fees and interest.

Congressman Michael McNulty requested that we quantify the number of beneficiaries
and recipients who direct their benefit payments to payday lenders. In addition, he
requested we summarize demographic information for the affected individuals and
provide geographic locations where this type of activity is most prevalent.

Direct Deposit of Benefit Payments
The Debt Collection Improvement Act of 1996 requires that most Federal payments be
made by electronic funds transfer (EFT). Title II and XVI recipients for whom payment
by EFT would impose a hardship may request to be exempted from the EFT
requirement. Recipients determine what constitutes a hardship, and SSA does not
verify or document the self-determinations. 1

Individuals can work with financial institutions to have their SSA payment electronically
deposited into an account established at the financial institution. Automated Enrollment
is a process by which a financial institution sends enrollment information through the
Automated Clearing House directly to SSA. Once SSA is notified of the EFT request,
payments are sent to the requested bank account.




1
    SSA, Program Operations Manual System (POMS), GN 02402.001A, Direct Deposit Policy.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)             1
Assignment of Benefits
Section 207 of the Social Security Act (42 U.S.C § 407) protects a beneficiary’s right to
receive benefit payments directly and use them as he/she sees fit by prohibiting the
assignment of benefits. Assignment is the transfer of the right to, or payment of,
benefits to a party other than the beneficiary or his/her representative payee. With
limited exception, SSA policy prohibits payment of benefits to anyone other than the
beneficiary or representative payee. SSA policy states that “Any arrangement in which
the claimant shares control of the funds from his or her benefit with person or entity that
has an interest in charging or collecting money from the claimant is an assignment-like
situation that violates SSA’s policy.” 2 According to SSA, the protections provided by
Section 207 of the Social Security Act were enacted in 1935. Further, SSA states since
that time, electronic banking has increased the complexity of benefit delivery and
presented challenges to ensuring beneficiaries retain control of benefit payments.

Generally, an SSA beneficiary or recipient’s mailing address should be the address
where he/she resides or his/her own post office box (or the address or post office box of
his/her representative payee). 3 Any other address is questionable and will not be
accepted if it

•     facilitates the assignment of benefits,
•     directs checks to a location where the check payee cannot readily negotiate them, or
•     permits the check payee to conceal information that, if known to SSA, would result in
      nonpayment of benefits, substitution of payee, etc.

Any request for direct deposit that assigns or transfers the right to future payments to
someone other than the beneficiary constitutes an assignment of benefits. 4 When a
request for direct deposit is made that raises a question about possible assignment of
benefits, SSA should obtain a written Direct Deposit Sign-Up form from the beneficiary,
verify there is no assignment, and verify the bank account is properly titled.

Non-Bank Financial Service Providers
Non-bank financial service providers (FSP) include check cashing businesses, currency
exchanges, and loan companies. For a fee, these businesses provide customers
various financial services including check printing, check cashing, cash advance/payday
loans, money orders, bill paying, wire transfers, and/or foreign currency exchange.


2
    SSA, POMS, GN 02410.001.D.2, Assignment of Benefits.
3
    SSA, POMS, GN 02605.005.A, Questionable Addresses-COA.
4
    SSA, POMS, GN 02402.045.B, Direct Deposit and Assignment of Benefits.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)              2
Most non-bank FSPs that offer customers one service offer multiple services. 5 Through
business relationships with traditional financial institutions, non-bank FSPs can offer
direct deposit services to SSA beneficiaries. With beneficiary approval, non-bank FSPs
can establish accounts at traditional financial institutions and use those accounts to
receive SSA benefit payments. Unlike traditional bank accounts, the beneficiary does
not have direct access to deposited funds. Instead, the financial institution makes the
funds, less a transaction fee, available to the non-bank FSP for disbursement. The
non-bank FSP then deducts additional fees for its services and makes the remaining
balance available to the SSA beneficiary.

Ongoing Audit Work
As part of our audit of Beneficiary and Recipient Use of “In Care of” Addresses, we
obtained data files containing information on individuals in current payment status as of
September 2006. Through analysis of these data, we identified several individuals who
had SSA either mail their checks to or electronically deposit benefit payments into
accounts controlled by two Los Angeles, California, check cashing/payday loan
businesses. Most of these individuals were SSI recipients. SSA staff said they
recommended individuals who were homeless or had no other secure means of
receiving their payments have their payments sent to local check cashing businesses.




5
    Non-Bank Financial Institutions: A Study of Five Sectors, Coopers & Lybrand, February 28, 1997.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                         3
                                                           Results of Review
Through the use of payment address changes or direct deposit, non-bank FSPs,
including payday lenders, gained direct access to thousands of individuals’
SSI payments. 6 We performed a limited review of SSI payments electronically
deposited into accounts at five banks known to have financial relationships with
non-bank FSPs. 7 Our review determined that, as of March 2008, SSA deposited the
SSI payments of at least 63,065 individuals into accounts established and controlled by
non-bank FSPs at these 5 banks. Monthly SSA payments deposited into these
accounts total more than $34 million.

In a few hundred cases, SSA payment records reflected the non-bank FSP’s name and
address—indicating SSA was aware payments were going to the non-bank FSPs.
However, in most cases, SSA payment records did not directly indicate non-bank FSP
involvement in the payment transaction. In these instances, it appeared beneficiaries or
their representative payees entered into agreements with non-bank FSPs who, in turn,
opened bank accounts on their behalf at traditional financial institutions with Department
of the Treasury (Treasury) assigned routing numbers. Either the SSI recipients
submitted electronic deposit requests to SSA providing the bank routing and account
numbers used by the non-bank FSP or the financial institution sent direct deposit
auto-enrollment information directly to Treasury. In either case, once the direct deposit
requests were processed, SSA began sending the individuals’ payments to accounts
controlled by the non-bank FSPs. Once received, the financial institutions made the
funds available to the non-bank FSPs for disbursement to the recipients. Before
disbursement, the non-bank FSPs subtract amounts due from the recipient.

Consumers who use non-bank FSPs typically pay higher costs in the form of transaction
fees for financial services than individuals with traditional banking relationships. The
cost of loans acquired through non-bank FSPs can be high relative to the amounts
borrowed. Treasury research indicates Social Security recipients pay an average of
between $9 and $16 in fees just to cash their Government check at a non-bank FSP, 8
indicating the non-bank FSPs and their financial institution partners charge the
63,065 recipients between $567,585 and $1,009,040 in monthly check cashing fees.


6
 We did not identify the specific non-bank FSPs linked to these direct deposit accounts and did not
confirm whether payday loans were among the financial services offered by the non-bank FSPs.
7
  We identified these five banks either because (1) their bank routing number appeared on payment
records of SSI recipients whose address reflected the business name of a non-bank FSP or (2) SSA
identified the bank to us as the result of complaints received from SSI recipients. In no way do we imply
that these are the only banks used by non-bank FSPs to receive SSA benefit payments.
8
 Treasury Office of Public Affairs Press Release JS-503, Testimony from the Assistant Secretary for
Financial Institutions, Treasury, before the Subcommittee on Financial Institutions and Consumer Credit
of the Committee on Financial Services, U.S. House of Representatives, June 26, 2003.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                               4
These amounts are in addition to fees charged for other services (payday loan fees,
wire transfers, money orders, etc.). 9

Analysis of demographic information on the 63,065 recipients whose SSI payments
were sent to non-bank FSPs revealed the affected individuals were predominantly
minority and disabled—most suffering from various mental conditions. We provide
detailed demographic information on these recipients on Pages 8 through 10.

Though, in most cases, it appeared SSA did not know SSI payments were being sent
directly to non-bank FSPs, we are not aware of any action SSA has taken to prevent the
transfer of payments to payday lenders or any other non-bank FSP. SSA policies
outline the steps to send payments directly to non-bank FSPs. Further, we found
instances where SSA management and staff encouraged homeless recipients to sign
up for direct deposit accounts through payday lenders to prevent recipients from picking
up their checks inside SSA field offices.

On April 21, 2008, SSA published a notice in the Federal Register requesting public
input regarding an anticipated change to an Agency payment procedure that permits
benefit payments to be deposited into third-party “master” accounts when the third party
maintains separate “sub” accounts for individual beneficiaries. 10 SSA anticipates a
change to the current procedure in light of concerns about how high-interest lenders are
using the master/sub account procedure. SSA requested public comments be
submitted by June 20, 2008.

On June 9, 2008, we provided the Agency with the opportunity to review a preliminary
draft of this report. On June 13, 2008, the Agency provided written comments, which
we incorporated into the report, as deemed appropriate. The full text of the Agency’s
comments are provided in Appendix C.

Non-Bank FSPs Gained Access to SSI Payments
Through the use of payment address changes or direct deposit, non-bank FSPs,
including payday lenders, gained access to thousands of individuals’ SSI payments.

Business Names Recorded on SSA Payment Records

SSI recipients or their representative payees can request that SSA mail or deposit their
benefit payment “in care of” a third party. Third parties can include friends, relatives, or
nursing homes. We found that, on occasion, recipients request that SSA send their
payment to check cashing or currency exchange businesses. We reviewed payment

9
  We identified the 63,065 recipients through review of SSA payment records. We did not contact any of
the SSI recipients and did not ascertain the extent of financial services acquired through the non-bank
FSPs.
10
     Federal Register Vol. 73, No. 77, Monday, April 21, 2008, page 21403.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                             5
addresses that appeared on the payment records of over 7 million SSI recipients in
current payment status as of September 2006. Our analysis identified 463 SSI
recipients whose payment address contained the name of a check cashing or currency
exchange business. In these cases, it appeared SSA received a request from the
recipient or representative payee instructing it to use the non-bank FSP’s address as its
mailing/payment address. Our review indicated almost 90 percent of the 463 SSI
recipients lived in either Illinois or California.

Business Names Did Not Appear on SSA Payment Records

Based on analysis of September 2006 SSI payment data and discussion with SSA
personnel, we identified five bank routing numbers known to be used by non-bank FSPs
to establish accounts to receive SSA direct deposit payments. Through further review
of March 2008 SSI payment data and discussions with bank personnel, we identified
63,065 SSI recipients who had received payments in accounts established at the
5 banks by non-bank FSPs.

                                             Number of      Recipient
                                                SSI           Primary
                         Bank Location       Recipients     Locations
                      Louisville, KY         25,798       South/East
                      Chicago, IL            20,135       Upper Midwest
                      Stockton, CA            9,442       South
                      Chattanooga, TN         5,764       South
                      Santa Fe Springs, CA    1,926       California

Discussion with bank personnel indicated the banks establish individual accounts for
customers of various check cashing, currency exchange, and/or loan companies.
These accounts are used to receive electronic deposits on behalf of the customers (in
this case, SSI recipients). Review of SSA payment records indicated approximately
80 percent of the electronic deposits was established via automated enrollment. Under
the automated enrollment process, banks open an account for the recipient and notify
SSA that the recipient wants direct deposit to the account. Upon receipt of the
notification, the direct deposit information is added to the recipient’s payment record,
and subsequent payments are deposited into the requested bank account. However,
unlike a traditional checking or savings account, recipients do not have direct access to
funds deposited into these accounts. Once the banks receive the deposits from
Treasury, the funds, less a $2 or $3 transaction fee per individual, are consolidated into
clearing accounts available for disbursement only by the non-bank FSPs. Once
deposited, the funds are under the effective control of the non-bank FSP. Before
disbursing funds to the recipients, the non-bank FSPs deduct additional check printing
fees, check cashing fees, loan principal/interest/fees, and fees for any additional
services provided to the recipient.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)            6
Direct Deposit Canceled by Recipient and Re-established by Non-Bank FSP

SSA beneficiaries can cancel direct deposit authorization at any time. However, SSA
personnel provided information on isolated instances where payday lenders used the
automated enrollment process to re-establish direct deposit against the expressed
desire of SSI recipients. In each of these cases, it appeared recipients had outstanding
balances with the loan company. At some point, the recipients requested SSA either
change or cancel the direct deposit of SSI payments into bank accounts controlled by
the loan company. Once the loan company became aware that the SSA payments
were no longer deposited into bank accounts under their control, it appears they
requested their financial institution re-establish the direct deposits via automated
enrollment.

According to SSA personnel, in response to complaints regarding establishment of
unauthorized direct deposit via automated enrollment, SSA contacts the loan company
and requests it stop enrolling recipients in direct deposit without current authorization. If
the loan company is not responsive, the Office of General Counsel can send the loan
company a cease and desist letter. If the practice continues, SSA can contact the loan
company’s financial institution and inform it that enrolling customers in direct deposit
against their will is against the law. As a last resort, SSA can block the financial
institution’s routing number, thereby terminating all SSA direct deposits to the particular
financial institution. However, SSA staff provided no instance where this action had
been initiated. SSA explained that the current policy was implemented in the late
1990s. Since that time, Headquarters personnel were asked to assist on only a small
number of complaints involving unauthorized direct deposit reenrollment. In each case,
the complaints were resolved through contact with the non-bank FSP.

Demographic Information on 63,065 Recipients Whose Payments
Were Sent to Non-Bank FSPs
Through analysis of SSA records, 11 we identified demographic information on the
63,065 recipients whose SSI payments were electronically deposited into bank
accounts controlled by non-bank FSPs. Our analysis indicated the recipients who
received their SSI payments through non-bank FSPs were composed primarily of
individuals self-identified as minorities. 12 Nearly all the individuals were diagnosed with
some form of disability—more than half suffered from mental disabilities. Detailed
demographic information is provided below.

11
   We obtained race, gender, and date of birth information from SSA’s Numident file--a database that
contains personal information related to each SSN issued by SSA. We obtained disability diagnosis
information and state of residence from SSA’s Supplemental Security Record (SSR) file—a database that
contains information used to administer the SSI program.
12
  SSA accepts race and gender information provided by SSN card applicants and records the information
on the Numident file. We compiled the race and gender information that appeared in SSA records for
these 63,065 recipients, but did not perform any tests to verify its accuracy.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                       7
Composition by Race/Gender

Approximately 76 percent of the 63,065 SSI recipients were minorities—primarily black
or Hispanic. About 53 percent of the recipients were female.



                             Race Per SSA's Numerical Identification System

                                               Other
                                               (981)

                                      Unknown
                                       (6,331)

                              Hispanic
                               (6,964)

                                                               Black
                             White                            (40,536)
                            (8,253)




                         Gender Per SSA's Numerical Identification System




                                  Male                       Female
                                  47%)                        (53%)




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)           8
Physical and/or Mental Capacity

Approximately 96 percent of the SSI recipients had been diagnosed with a disability.
More than half the recipients suffered from some form of mental condition. We were
advised by SSA that approximately 82 percent of the overall SSI population is entitled
based on disability.




              Disabilities Diagnosed for 63,065 Recipients Whose SSI Payments are
              Electronically Deposited into Accounts Controlled by Non-Bank FSPs




                                                                     Mood
                                                                   Disorders
                                                                    (7,743)

                                                                                   Psychotic
                                                                                   Disorders
      Disabled        Disabled
                                                     Mental                         (3,874)
     Recipients      Recipients
  With Non-Mental    With Mental                   Retardation
     Condition        Condition                     (13,666)
                                                                                    Attention
      (25,945)         (34,877)                                                  Deficit Disorder
                                                                                     (2,708)




                                                                                             Organic
                                                                                              Mental
           Not
        Disabled                                                                            Disorders
         (2,243)                                                                             (1,845)
                                                                                Anxiety
                                                                               Disorders
                                                                    Other       (1,070)    Learning
                                                                   Mental                  Disorders
                                                                  Disorders                 (1,195)
                                                                   (2,776)




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                       9
State of Residence

The SSI recipients lived in 43 States or the District of Columbia.


                                                    Number of
                            State                   Individuals       Percent
                           Illinois                  21,371           33.9
                       Pennsylvania                   6,393           10.1
                         New York                     5,638            8.9
                          Georgia                     5,114            8.1
                         California                   3,630            5.8
                         Louisiana                    3,130            5.0
                           Texas                      2,114            3.4
                         Alabama                      2,102            3.3
                        Wisconsin                     1,654            2.6
                         Maryland                     1,418            2.3
                          Indiana                     1,348            2.1
                      South Carolina                  1,124            1.8
                        Mississippi                   1,077            1.7
                          Florida                       984            1.6
                         Kentucky                       930            1.5
                      Massachusetts                     912            1.5
                        Tennessee                       847            1.3
                        New Jersey                      710            1.1
              25 Others & District of Columbia        2,569            4.0
                            Total                    63,065          100.0

Age

The average age of these recipients was 39, and the median age was 42. The oldest
recipient was 105 years old, while the youngest was a 4-month old child.

                                               Number of
                                 Age           Recipients
                               Under 18         14,392
                                18-29            8,201
                                30-49           18,593
                                50-64           15,367
                              65 or Older        6,512
                                 Total          63,065




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)       10
Representative Payment

Some individuals cannot manage or direct the management of their finances because of
their youth or mental/physical impairment. For such people, Congress provided for
payment to be made through a representative payee who receives and manages benefit
payments of the beneficiary. 13 Representative payees are expected to act in the
claimant’s best interest and ensure benefit payments are used first to meet the
claimant’s current needs. However, we found that 26,471 (42 percent) of the recipients
who had their SSI payments sent to non-bank FSPs had representative payees. We
were advised by SSA that this percentage is reflective of the SSI population at large.
Representative payees who direct or allow recipients’ SSI payments to be directed to a
check cashing business or payday lender raise doubts as to whether they are acting in
the beneficiaries’ best interest. SSA noted that representative payees are often family
members who, like the beneficiaries, may not have access to traditional banking
institutions.

Steps Taken to Prevent Transfer of Payments to Payday Lenders
Though we found in most cases, SSA was not aware it direct deposited SSI payments
into accounts controlled by non-bank FSPs, we identified no action taken by SSA to
prevent the transfer of payments to payday lenders or any other non-bank FSP. 14 On
the contrary, though SSA policies appear to prohibit these types of arrangements, SSA
policies outline steps to follow to send payments directly to non-bank FSPs. Further, we
found instances where SSA management and staff actually encouraged homeless
transient recipients to send their payments to payday lenders to reduce the number of
recipients who pick up their checks inside SSA field offices.

Both Federal law and SSA policy prohibit the assignment or transfer of the right to, or
payment of, benefits to a party other than the beneficiary or his/her representative
payee. SSA policy contains several references that appear to prohibit payment of SSA
benefits to payday lenders or any other non-bank FSP. For example, with limited
exception, SSA policies prohibit payment of benefits to anyone other than the
beneficiary or representative payee. SSA policy states that “Any arrangement in which
the claimant shares control of the funds from his or her benefit with person or entity that
has an interest in charging or collecting money from the claimant is an assignment-like
situation that violates SSA’s policy.” 15 With the exception of Internal Revenue Service


13
  The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
1383(a)(2)(A)(ii).

14
   As previously stated, SSA is considering changes to current policies and procedures which allow high
interest lenders to obtain access to SSA benefit payments and published a notice in the Federal Register
on April 21, 2008, requesting public input regarding anticipated changes.
15
     SSA, POMS GN 02410.001.D.2.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                         11
levy, child support (and/or alimony) garnishment, or state reimbursement, SSA policy
states “. . . do not pay benefits to anyone other than the beneficiary (or his/her
representative payee).” 16

SSA policies also state the Agency should “. . . avoid payment situations that give
physical control over a benefit payment to someone other than the beneficiary;
e.g. sending a benefit payment, either by check or electronically, to a loan company
where the beneficiary has a loan. . . .” 17 SSA policy further states “Direct deposit
payments cannot go directly to any of the following types of institutions:

•     credit card companies,
•     finance companies,
•     insurance companies, or
•     other non-traditional financial service companies.” 18

While seeming to prohibit the sending of SSA payments to non-bank FSPs, SSA policy
also states, “Since direct deposit is now the presumed method of payment and will be
required for all Government payments in the final phase of the new direct deposit
requirements, many non-bank financial service providers, such as loan companies and
check cashing facilities, now offer direct deposit for their customers. The direct
deposit may be arranged in one of the following ways. . . .” 19 The policy goes on to
describe how to set up these direct deposits by stating, “This type of arrangement is
acceptable and does not constitute assignment of benefits if all the following
requirements are met:

•     The benefits must be deposited in an account owned by the beneficiary at a
      Financial Institution . . .
•     Enrollment must be voluntary on the part of the beneficiary.
•     The beneficiary must be able to terminate the direct deposit arrangement upon
      request.
•     Funds paid to a representative payee through a non-bank Financial Service Provider
      must be used for the beneficiary’s current needs.” 20

During a recent audit, we identified two California field offices that openly encouraged
homeless SSI recipients to receive payments through local payday lenders. By their
own admission, to reduce the number of SSI recipients who pick up checks in field

16
     SSA, POMS GN 02410.001.D.1.
17
     SSA, POMS GN 02410.001.D.2.
18
     SSA, POMS GN 02402.030A.2, Acceptable Types of Financial Institutions and Accounts.
19
     SSA, POMS GN 02402.030B.4.
20
     SSA, POMS GN 02402.030B.4.b.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)              12
offices, Region management encouraged this practice. Field office management
actually visited local non-bank FSPs and compiled a short list of preferred vendors who
wanted SSA customers. We brought this issue to the attention of the San Francisco
Regional Commissioner. Upon investigation, an Assistant Regional Commissioner
stated the field offices properly followed SSA policy for transients without accounts at
traditional financial institutions and concluded there was no problem with the activities of
these two offices.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)             13
                                                                 Conclusions
Non-bank FSPs, including payday lenders, obtain direct access to at least $34 million in
monthly SSI payments to more than 63,000 recipients because, at the recipient’s
request, SSA provides them access to benefit payments. Most of the affected
individuals were from minority populations, and nearly all the individuals are disabled.
Most of these disabled SSI recipients suffer from some form of mental disability. We
found that SSA policies, though somewhat contradictory, sanction this practice.
Further, we found that SSA field offices encourage homeless recipients without
traditional banking relationships to send their payments to non-bank FSPs. Such
practices subject a vulnerable population of individuals to high transaction fees and,
potentially, to predatory payday loans. SSA is currently considering a change to its
payment procedures that permit benefit payments to third-party accounts.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)         14
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)
                                                                          Appendix A

Acronyms

    EFT                Electronic Funds Transfer

    FSP                Financial Service Provider

    POMS               Program Operations Manual System

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    SSN                Social Security Number

    SSR                Supplemental Security Record

    Treasury           Department of the Treasury




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)
                                                                          Appendix B

Scope and Methodology
To accomplish our objectives, we:

• Reviewed applicable laws, regulations and the Social Security Administration’s (SSA)
  policies and procedures governing use of non-bank Financial Service Providers
  (FSP).

• Interviewed SSA, bank, and non-bank FSP staff.

• Reviewed prior Office of the Inspector General and Government Accountability Office
  reports and found none related directly to our objectives.

• Analyzed Supplemental Security Income (SSI) payment data as of September 2006
  and identified 463 SSI recipients whose payment address contained the name of a
  non-bank FSP. Based on review of these data and discussion with SSA personnel in
  the Atlanta Region, we identified five bank routing numbers used by non-bank FSPs
  to receive SSI payments. In March 2008, we identified 63,065 SSI recipients who
  received electronic deposits to accounts linked to the 5 routing numbers. We
  contacted representatives from four of the five banks and confirmed the accounts
  were not individual checking or savings accounts—the accounts were opened as a
  result of business arrangements between the bank and non-bank FSPs.

• Information available in SSA systems did not allow us to identify the specific
  non-bank FSPs that controlled the direct deposit accounts. Limits on available
  information also prevented us from determining specific services provided or
  amounts charged by the non-bank FSPs. Consequently, we did not confirm whether
  payday loans were among the financial services offered by all of the non-bank FSPs.
  However, we did confirm that loans were among the financial services some of the
  non-bank FSPs offered to SSI recipient customers.

• Using SSA’s Supplemental Security and Numerical Identification records, we
  identified pertinent demographic information (date of birth, gender, race, current
  address, disability diagnosis code, representative payee information, and direct
  deposit information) related to each of the 63,065 SSI recipients.

We conducted fieldwork during March and April 2008. The entity audited was Office of
the Deputy Commissioner for Operations. We did not test the general or application
controls of SSA systems that generated electronic data used for this audit. Instead, we
traced extracted data to source documents and performed other validation tests, and
found the data to be sufficiently reliable to meet our audit objectives. We conducted this
audit in accordance with generally accepted government auditing standards.


Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)
                  Appendix C

Agency Comments
    SSA Comments on OIG Draft Report, “SSA Payments Sent to Payday Loan Companies”
We share the concerns regarding the extent to which high-interest and potentially predatory
lenders are obtaining inappropriate access to Social Security payments. We appreciate the work
of the OIG to shed additional light on this issue. You will see from our comments below that we
fully understand the issues raised and we are eager to strengthen our policy. We offer the
following perspective and comments on the overall issue, and on some specific points in the
report.

   •   SSA Policy
The protections provided by Section 207 of the Social Security Act were enacted in 1935. The
statute protects a social security payment from attachment, garnishment or other legal process
with few exceptions. Since that time, electronic banking has increased the complexity of benefit
delivery. We now find ourselves balancing the need to pay beneficiaries in a safe, electronic and
timely manner, with the need to ensure that beneficiaries have control over their funds. This
latter issue of ensuring control presents a challenge to the SSA, since we do not and cannot
regulate the banking industry.
Our current policy attempts to ensure that beneficiaries receive their money in safe, electronic
and timely fashion, and that they retain control of those funds. We do this in two complimentary
ways:
   1) Our policy states that “Any arrangement in which the claimant shares control of the funds
      from his or her benefit with person or entity that has an interest in charging or collecting
      money from the claimant is an assignment-like situation that violates SSA’s policy”. Our
      rationale for this policy is that while a beneficiary may choose to spend their money in
      any way they see fit, including payment to a creditor, the statute provides that the
      beneficiary must be in control of those choices, not the creditor.
   2) Under our policy, we also allow an arrangement commonly referred to as the master-sub
      account. This permits individuals who may not qualify for traditional bank accounts, or
      who choose an alternate setup, to receive their benefits in a manner that allows them to
      retain control of their funds. These accounts are established and maintained in traditional
      financial institutions. We do not allow funds to go directly to credit card companies,
      finance companies, insurance companies or other non-traditional financial services
      companies. In the case of a non-bank financial service provider (FSP) or check cashing
      facility, we allow the master-sub account arrangement to be used to serve those
      individuals who wanted electronic deposit, but do not have a bank account. Our policy
      requires that the deposit into one of these accounts must meet certain criteria, as listed on
      page 11 of the OIG report, and as shown below:
           a. Benefits must be deposited in an account owned by beneficiary;
           b. Enrollment must be voluntary;
           c. The arrangement must be revocable and the beneficiary can terminate the direct
              deposit at any time; and,



Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                  C-1
           d. Funds paid to a representative payee through a non-bank FSP must be used for the
              beneficiary’s current needs.
The reason that our policy has been called into question is because some institutions have
allegedly violated this policy. For example, on February 28, 2008, The Wall Street Journal cited
a case where the creditor repeatedly enrolled the beneficiary in a master-sub account
arrangement against the will of the beneficiary. That action is in clear violation of Treasury
regulations and SSA policy. In fact, SSA took action and resolved the issue cited in the WSJ
article prior to its publication.
Since our current policy was implemented in the late-1990s, SSA headquarters personnel were
asked to assist in resolving only a few complaints involving abuse of the master-sub account
arrangement, i.e., unauthorized direct deposit reenrollments. We immediately took action to
remedy those problems by contacting the non-bank FSP and informing them that they were in
violation of Treasury regulations. All other complaints were resolved by local SSA field office
or regional office personnel through contact with the non-bank FSP.
Page 7 of the report states, "As a last resort, SSA can block the financial institution's routing
number, thereby terminating all SSA direct deposits to the particular financial institution.
However, SSA staff provided no instance where this had been implemented." However, the
report fails to explain the reason for this; we never used this procedure because we resolved all
complaints and the institutions ceased this practice upon notification. As a result of our actions,
the individual regained access and control of his funds without the need to block use of the
routing number.
On page 10, the report states that representative payees who direct payments to check cashing
companies “raise doubts as to whether they are acting in the beneficiaries’ best interest.” This
does not seem to recognize that most of these representative payees are family members who are
just as poor as the spouse/child SSI recipient and may not have access to banking institutions;
they may have access only to these non-bank FSPs.

   •   Field Office Practices
The report states that some field offices “openly encouraged homeless SSI recipients to receive
payments through local payday lenders.” In these circumstances, it is noteworthy that field
offices are referring individuals for the purpose of check or electronic payment delivery and not
to get loans. There is no evidence that such suggestions from our field offices have led to any
predatory or abusive arrangements.
Our field offices regularly work with beneficiaries who may not have access to traditional bank
accounts. Some of these individuals may be homeless, and we are therefore unable to send them
a paper check. While SSA employees do have the option of mailing the check to the local SSA
office, where the beneficiary then picks up the check, this arrangement presents numerous
problems. First, when the beneficiary picks up a paper check from a field office, they must still
go cash that check. If they do not have a bank account, they may ask the field office what
options exist. We believe the field offices are attempting to give helpful service by providing
information about available payment delivery options, including non-bank FSPs.




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                    C-2
As we will describe below, we are eager to make any changes or implement any safeguards that
would improve our current policy or practice. It is important to note however, that SSA does not
have the authority to regulate the banking industry nor determine or track lending practices.
   •   Insufficient Data to Draw Conclusions
The report cites 63,065 individuals with SSI deposits into accounts established and controlled by
non-bank FSPs. However, there is no indication of how many of those banking arrangements
might be preferred by the beneficiary and compliant with our current policy as noted above (a, b,
c, and d). The OIG also provides no data to show how many, if any of those are predatory
arrangements that disadvantage the beneficiary. Therefore, it is difficult to draw conclusions
from this report, positive or negative, about the master-sub account arrangement and the use of
non-bank FSP accounts.
In addition, the demographic data show that recipients studied are predominantly minority and
disabled. While we have not yet begun to collect race and ethnicity data on beneficiaries, we
plan to do so beginning in 2009. It should be noted that the data in the OIG report are reflective
of the SSI population at large, to the best of our knowledge. For example, 82 percent of the
overall SSI population is entitled based on disability and 43 percent of disabled recipients have a
representative payee. In other words, the population using non-bank FSPs would seem to be a
reflection of the overall composition of SSI recipients.
It is therefore not clear whether this data indicates any targeted or predatory lending practices, or
rather indicates that a portion of the SSI beneficiaries use non-bank FSPs instead of traditional
banks.

   •   SSA is Eager to Strengthen our Policy
On April 21, 2008, only two months after the first known news article was published on this
subject, SSA published a Federal Register Notice seeking public comment on our policy. In the
Notice, we asked the questions which appear at the end of this document. Comments are due by
June 20, 2008. While we know of very few cases where our policy has been problematic, we
must do everything we can to safeguard the rights of our beneficiaries.
We anticipate making a change to SSA policy regarding master-sub account arrangements.
Before we change our policy, we want to ensure that we understand the implications for our
beneficiaries and the business community who are using the arrangement today. We also want to
ensure that we have explored all alternative options and the implications of those, such as the
pre-authorization arrangement. This arrangement allows an account holder to authorize an
automatic withdrawal from their account on a one-time or recurring basis. The pre-authorized
arrangement is a widespread practice that might be more appropriate and fair. Another
alternative that has just become available is the Treasury Direct Express debit card. This
program makes banking services available at minimum cost to individuals who may not
otherwise have access to traditional bank accounts.
In summary, SSA cannot regulate the banking industry, set or control fees or banking practices.
However, we take full responsibility for ensuring that our policies are consistent with the statute
and the intent of Congress. We also know that our policies must evolve in light of new
technologies and the vulnerabilities they sometimes create. To this end, we have sought public


Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                     C-3
comment on our proposal to change policy to better protect the rights of beneficiaries. Once we
consider all comments, we will take prompt action to change our policy accordingly and to
provide training for our employees.


Questions in SSA’s Federal Register Notice, Issued April 21, 2008
    To what extent will the elimination of the procedure allowing benefits to be deposited
     into master/sub accounts create significant costs and burdens on beneficiaries or
     organizations that currently utilize this account arrangement?
    Are there alternative payment procedures that we could offer to ensure that beneficiaries
     receive their benefits and have control over them?
    The Act allows us to select representative payees to receive benefits on behalf of
     beneficiaries when we determine the interest of the beneficiary will be served. Generally,
     a payee is appointed if we determine that the beneficiary is not able to manage or direct
     management of benefit payments. Would nursing homes and religious orders that handle
     monies for both incapable beneficiaries, who need a representative payee, and capable
     beneficiaries be able to receive and manage benefit payments without the use of
     master/sub accounts?
    Without master/sub account arrangements, would creditors instead require beneficiaries
     to preauthorize the transfer of their benefits to the creditor when they are deposited into
     the beneficiary's account?
    Do beneficiaries have sufficient control over their benefits when they have elected to
     automatically transfer their benefits into the accounts of creditors after the benefits are
     deposited into the beneficiary's own account?
    How can we address the situation where the lender will not allow the beneficiary to
     terminate a direct deposit arrangement or a preauthorized transfer of benefits?




Social Security Administration Payment Sent to Payday Lenders (A-06-08-28112)                C-4
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and procedures,
internal controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and
Quality Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
